               OFFICE OF
               INSPECTOR
               GENERAL
               UNITED STATES POSTAL SERVICE




       Postal Service Challenges in the
       Equal Employment Opportunity
                   Process
        Management Advisory Report




                                         September 21, 2012

Report Number HR-MA-12-003
                                                                    September 21, 2012

                                                    Postal Service Challenges in the
                                             Equal Employment Opportunity Process

                                                         Report Number HR-MA-12 003



BACKGROUND:
Various statutes, regulations, and           decision to the Office of Federal
executive orders provide the framework       Operations, which is an office within the
of the Equal Employment Opportunity          EEOC. If the Office of Federal
(EEO) policy that prohibits unlawful         Operations upholds the EEOC’s
discrimination. The U.S. Postal              decision, the agency has exhausted its
Service’s EEO Program is consistent          appeal rights regarding certification.
with the federal government’s efforts to     Moreover, an independent review by the
establish a bias-free workplace. The         court system of critical class certification
Equal Employment Opportunity                 decisions is not an option for the Postal
Commission (EEOC) investigates               Service. As a result, the Postal Service
discrimination complaints based on an        can be required to expend significant
individual's race, color, national origin,   resources litigating a class action
religion, sex, age, disability, and          complaint that may not meet
retaliation for reporting and/or opposing    requirements for class certification in
a discriminatory practice. Our objective     federal court.
was to review EEOC rules and
regulations for processing class action      We also attempted to review time
complaints and how these rules apply to      employees spent on EEO matters and
the Postal Service and private               found the Postal Service does not
companies. This report responds to a         segregate EEO case activity time. As a
request from the Postal Service’s            result, management is not able to
general counsel and executive vice           determine how much official time
president.                                   employees spend on EEO-related
                                             activities.
WHAT THE OIG FOUND:
The EEOC’s process for certifying class      WHAT THE OIG RECOMMENDED:
action complaints by federal employees       We recommended that management
is less rigorous than the legal process      pursue changes to the EEOC’s class
governing class actions filed in federal     certification process consistent with the
court under the Federal Rules of Civil       process and appeals procedures set
Procedure (FRCP) by employees in the         forth in the FRCP, as applied by federal
private sector. Specifically, federal        courts. We also recommended
employees are required to meet fewer         management implement measures to
requirements for a case to be certified      track official time spent on EEO
as a class action by the EEOC. Most          activities.
importantly, federal agencies can only
appeal the EEOC’s class certification        Link to review the entire report
September 21, 2012

MEMORANDUM FOR:            MARY ANNE GIBBONS
                           GENERAL COUNSEL AND EXECUTIVE VICE PRESIDENT

                           DOUG TULINO
                           VICE PRESIDENT, LABOR RELATIONS




FROM:                      Michael A. Magalski
                           Deputy Assistant Inspector General
                            for Support Operations

SUBJECT:                   Management Advisory Report – Postal Service
                           Challenges in the Equal Employment Opportunity Process
                           (Report Number HR-MA-12-003)

This report presents the results of our review of U.S. Postal Service Challenges in the
Equal Employment Opportunity Process (Project Number 11YG047HR000).

We appreciate the cooperation and courtesies provided by your staff. If you have any
questions or need additional information, please contact Andrea Deadwyler, director,
Human Resources and Security, or me at 703-248-2100.

Attachments

cc: Patrick R. Donahoe
    Anthony J. Vegliante
    Thomas Marshall
    Eloise Lance
    Corporate Audit and Response Management
Postal Service Challenges in the                                                                                  HR-MA-12-003
 Equal Employment Opportunity Process


                                               TABLE OF CONTENTS


Introduction ..................................................................................................................... 1

Conclusion ...................................................................................................................... 2

Differences in Class Action Certifications and Appeals ................................................... 2

Employee Time Spent on Equal Employment Opportunity Matters ................................. 4

Recommendations .......................................................................................................... 5

Management’s Comments .............................................................................................. 6

Evaluation of Management’s Comments ......................................................................... 6

Appendix A: Additional Information ................................................................................. 7

   Background ................................................................................................................. 7

   Objective, Scope, and Methodology ............................................................................ 8

   Prior Audit Coverage ................................................................................................... 9

Appendix B: Class Action Certification Requirements ................................................... 10

Appendix C: Management’s Comments ........................................................................ 11
Postal Service Challenges in the                                                                     HR-MA-12-003
 Equal Employment Opportunity Process



Introduction

This report presents the results of our review of U.S. Postal Service challenges in the
Equal Employment Opportunity (EEO) Process (Project Number 11YG047HR000) and
responds to a request from the general counsel and executive vice president. Our
objective was to review Equal Employment Opportunity Commission (EEOC) rules and
regulations for processing class action complaints and how these rules apply to the
Postal Service and private companies. This review addresses operational risk. See
Appendix A for additional information about this review.

The U.S. Post Office Department was organized on July 26, 1775, by decree of the
Second Continental Congress. In 1971, the department was reorganized under the
Postal Reorganization Act1 as a quasi-independent agency of the federal government
and acquired its present name, the U.S. Postal Service. As an independent agency of
the executive branch, it is self-sustained by covering its operating costs with revenues
generated through the sales of postage and postal related products and services. The
Postal Service receives no appropriations for purposes other than revenue forgone on
free and reduced rate mail.2

Like other employers, the Postal Service must comply with federal laws, such as those
that protect employees from discrimination in the work place. While it is required to
operate like a business, the Postal Service is not governed by the same EEOC
regulations and procedures that apply to private sector employers; instead, in this
regard, it is treated like a federal entity. For example, under EEOC regulations, the
Postal Service can appeal EEOC class action certification decisions only at one level
whereas, in the private sector, such decisions may be appealed at two levels in federal
court.

In fiscal year (FY) 2011, Postal Service employees filed 5,117 complaints and 2,719 of
those complaints were accepted by the Postal Service’s National EEO Investigative
Services Office in Tampa, FL. The Postal Service has 183 employees responsible for
processing EEO complaints and ensuring compliance with federal sector EEOC
regulations. The staff consists of EEO managers, specialists, analysts, and
administrative support personnel located nationwide. The Postal Service also has about
986 individuals under contract who assist in processing complaints.3 In FYs 2010 and
2011, the Postal Service spent about $20 million for investigations, final agency
decisions, mediation, and operation of its EEO office in Tampa, FL.



1
  P.L. 91-375.
2
  The Postal Service receives annual appropriations for revenue forgone in providing (1) free and reduced rate mail
for the blind, (2) people with disabilities, and (3) overseas voting material for U.S. elections.
3
  According to Postal Service officials, they contract with 834 mediators, 120 investigators, and 32 contractors who
prepare final agency decisions. Not all contractors are used throughout a given year and some handle multiple cases.
For example, mediators were used on 298 occasions in FY 2011.
                                                              1
Postal Service Challenges in the                                                                           HR-MA-12-003
Equal Employment Opportunity Process



Conclusion

The EEOC process for certifying class action complaints by federal employees has
fewer requirements than are required under the Federal Rules of Civil Procedure
(FRCP) that is applied by the federal courts in private sector cases. Moreover, federal
agencies, including the Postal Service, have limited rights to appeal EEOC class
certification decisions. As such, the Postal Service can be required to expend significant
resources litigating a class action complaint that, under the FRCP, may not meet the
requirements for class certification. The Postal Service is currently involved in two very
large class action suits4 filed with the EEOC. The differences in the EEOC’s class action
certification process can pose challenges to the Postal Service, especially in the current
economic climate, as it struggles to provide affordable postal services and comply with
EEOC rules and regulations that can have a significant financial impact on the agency.

Additionally, we determined that time complainants and their representatives spend on
EEO matters is not segregated or tracked. Specifically, management has not
established a timekeeping code specific to EEO activity. Therefore, the audit team could
not determine how much official time employees spend on EEO related activities.

Differences in Class Action Certifications and Appeals

Rules and regulations governing class complaints differ between the private and federal
sectors. For instance, the EEOC has a separate process for certifying class action
complaints filed by federal employees.5 There are no EEOC regulations specifically
addressing class complaints filed by private sector employees. The certification process
for class action suits brought against private sector employers is governed by Rule 23 of
the FRCP because these suits are litigated in federal court.6

Both Rule 237 and the EEOC’s class action regulations (§1614.204) list requirements
that must be met in order for a complaint to proceed as a class action. The four
requirements — applicable to both federal and private sector class complaints — are
numerosity, commonality, typicality, and adequacy of representation. However, for
private sector class actions filed in federal courts, plaintiffs must satisfy one of three
additional requirements before a class will be certified. The class must show that either:

   Individual adjudication of the class members’ claims would prejudice the opposing
    party (employer) or other class members.


4
  Class action suits provide a mechanism for an entire group of employees who share the same protected
characteristic (race, color, sex, age, religion, national origin, or disability status) to challenge an agency policy or
practice that allegedly discriminates against the whole group.
5
  See 29 C.F.R. §1614.204.
6
  The class certification requirements contained in the FRCP apply to all federal court class actions, regardless of
whether the parties to the action are from the public or private sector. Therefore, if a Postal Service (or other public
sector) employee brings a class action complaint in federal court, Rule 23 of the FRCP would apply.
7
  FED. R. CIV. PRO. 23(a) & (b).

                                                            2
Postal Service Challenges in the                                                                          HR-MA-12-003
Equal Employment Opportunity Process


   Injunctive or declaratory (for example, non-monetary) relief sought by class agent is
    proper on a class-wide basis.

   Common questions of fact among class members predominate over any questions
    affecting only individual members, and class action is superior to other available
    methods for fair and efficient adjudication of the claim.8

See Appendix B for a description of these requirements.

While EEOC regulations mandate that class complaints must generally satisfy the same
requirements found in Rule 23(a), the EEOC does not require a class to satisfy the
Rule 23(b) requirement to be certified by an administrative judge.9 Additionally,
Rule 2310 outlines who can be included and excluded and how the class members are
to be notified about the nature of the action, definition of the class certified, and class
issues or defenses. For private sector cases presented in federal court, if the case
involves individualized money damages,11 members must be notified of the class
action12 and be permitted to opt-out of the class.13 EEOC regulations, on the other
hand, stipulate that once a class is certified all potential complainants are automatically
included and notified, and members are not permitted to opt-out of the class.14

The additional requirements in Rule 23(b) add rigor to a class certification process,
whose end result can have serious financial implications for employers like the Postal
Service. For example, the Postal Service has two ongoing EEO complaints involving
alleged violations of the Rehabilitation Act, which were certified under EEOC regulations
as class actions. One case has 36,000 class members and the other 130,000. In each
case, the EEOC determined that class treatment of the complaints was more
appropriate than having employees file separate individual actions. The Postal Service
was then required to provide the EEOC with the list of individuals that should be
included in the class. Under this obligation, the Postal Service has to do all the research
at its own expense to determine class membership and notify all potential class
members about the nature of the action, definition of the class certified, and class
issues or defenses. Moreover, in one case, the EEOC ordered the Postal Service to do
investigative work to determine the individual damage claims of the class members
before making any determination on liability.

The Postal Service appealed the EEOC’s class certification decisions on the two cases
in question, stating the necessity of separate, individualized fact-driven determinations
for class-action treatment of disability discrimination claims. It also appealed the

8
  FED. R. CIV. PRO. 23(b)(1)-(3).
9
  29 C.F.R. § 1614.204(d)(2).
10
   Fed. R. Civ. Pro. 23(c).
11
   Classes primarily seeking money damages are typically certified under Rule 23(b)(3).
12
   A court has the discretion to order notice to putative members of Rule 23(b)(1) and (2) classes; however, notice is
not mandatory.
13
   FED. R. CIV. PRO. 23(b)(3) & 23(c)(2)(B). The purpose of the mandatory notice and opt-out requirements is to
ensure that all class members have the choice to pursue their claim individually and not ―tie their fates to that of the
class representative.‖ Wal-Mart Stores, Inc. v. Dukes, 564 U.S. --- 131 S. Ct. 2541, 2559 (2011).
14
   29 C.F.R. §1614.204(e).

                                                            3
Postal Service Challenges in the                                                                         HR-MA-12-003
Equal Employment Opportunity Process


EEOC’s order to investigate damage claims before a finding of discrimination has been
made. However, under EEOC procedures, both appeals were reviewed and decided
upon by EEOC officials. Specifically, if an agency decides not to accept an
administrative judge’s class certification decision, it can only appeal the decision to the
Office of Federal Operations, an office within the EEOC.15 If the Office of Federal
Operations upholds the administrative judge’s decision, the agency has exhausted its
appeal rights (regarding certification) and cannot appeal it any further. However, if the
class complaint is dismissed by the administrative judge, the class agent may appeal
the dismissal to the Office of Federal Operations, or file a new civil action in federal
court (which can then be further appealed in the federal court system).16

In federal court, a judge’s decision to grant or deny class certification on a private sector
complaint may be appealed to the appropriate federal court of appeals in accordance
with Rule 23.17 However, the appellate court has sole discretion over whether to permit
an appeal from either party and the appeal must be filed within 14 days of the
certification order. Additionally, the court of appeals’ decision may be appealed to the
U.S. Supreme Court.18 Thus, class certification orders may be appealed at two levels in
federal court, whereas certification orders in EEOC proceedings may only be appealed
at one level to an office within the EEOC.

The Postal Service lost its appeals to the Office of Federal Operations in the two
referenced class actions, which if subject to the additional requirements of Rule 23
might never have been certified as class actions. Having the cases certified as class
actions increases the Postal Service’s costs in defending against both complaints
because of the large number of employees involved, especially when considering the
purported individualized nature of the class members’ damages. Moreover, seeking
changes to EEOC regulations, such as the right to challenge class certification
decisions in federal court, would be challenging for the Postal Service because the
EEOC is authorized by Congress to establish its own rules, regulations, orders, and
instructions in order to enforce anti-discrimination laws.19 Thus, congressional action
would be necessary to effect changes to existing EEOC authority.

Employee Time Spent on Equal Employment Opportunity Matters

The Postal Service does not track the time employees spend on EEO-related activities.
Time spent on EEO activity is captured in the payroll system under pay code 065.
However, pay code 065 is designated for meeting time; it does not specify EEO or
grievance activity time. Without specific tracking of employee EEO activity,
management is unable to determine how much time employees spend on EEO-related

15
   29 C.F.R. §1614.204(d)(7). This is the same process the agency would follow when appealing an EEOC decision
on an individually filed complaint. See id. §1614.110.
16
   Id. §1614.204(d)(7).
17
   Fed. R. Civ. Pro. 23(f)
18
   This is what happened in the Wal-Mart case. See Wal-Mart at 2541 (noting the case was appealed from the District
Court for the Northern District of California to the U.S. Court of Appeals for the Ninth Circuit, and then finally to the
U.S. Supreme Court).
19
   See 42 U.S.C. §2000e-16(b).

                                                           4
Postal Service Challenges in the                                                                      HR-MA-12-003
Equal Employment Opportunity Process


activities; if supervisors and managers are adequately monitoring employee’s time in
this regard; or the related costs of EEO activity for the Postal Service. Postal Service
officials stated that time spent on EEO activity is not specifically tracked and that abuse
of official time is not as much of a problem as it had been in the past because
supervisors and managers are doing a better job of monitoring official time. However,
we were not able to verify whether that is the case.

Federal sector EEOC regulations provide that both the complainants and their
representatives, if they are employees of the agency where the complaint arose and
was filed, are entitled to a reasonable amount of official time to present the complaint
and to respond to agency requests for information.20 EEOC guidance further defines a
reasonable amount of official time generally as hours rather than days, weeks, or
months.21

While recognizing that what is considered a reasonable amount of official time may vary
depending on the circumstances of the complaint, the EEOC considers it reasonable for
agencies to expect their employees to spend most of their time doing the work for which
they are employed. Postal Service policy requires that employees obtain approval from
their supervisors and managers to engage in reasonable EEO activity on the clock.

Recommendations

We recommend the general counsel and executive vice president:

1. Develop an action plan to pursue changes to the Equal Employment Opportunity
   Commission’s class certification process consistent with the process and appeal
   procedures set forth in the Federal Rules of Civil Procedure, as applied by the
   federal courts.

We recommend the vice president, Labor Relations:

2. Implement procedures to track official time spent specifically on Equal Employment
   Opportunity activities to ensure employees are not spending excessive time on
   these activities in lieu of performing their assigned duties.




20
     29 C.F.R. §1614.605. Private sector employees must pursue EEO activity on their personal time.
21
     See Management Directive 110, Chapter. 6, VIII(C).

                                                           5
Postal Service Challenges in the                                           HR-MA-12-003
Equal Employment Opportunity Process


Management’s Comments

Concerning recommendation 1, management concurred that EEOC class action rules
should be changed. Management disagreed, however, that such changes may be
effected through the general counsel’s development of an action plan.

Management agreed with recommendation 2, stating that it has already implemented
the standard rules to track official time spent by employees on Equal Employment
Opportunity activities. Management also attached a document to their response that
provided details. Specifically, management provided a memorandum to Human
Resources and Labor Relations managers, dated August 28, 2012, which provides
guidance on administering EEO official time. See Appendix C for management’s
comments in their entirety.

Evaluation of Management’s Comments

The U.S. Postal Service Office of Inspector General (OIG) considers management’s
comments regarding recommendation 1 non-responsive. While management agreed
that changes to the EEOC’s class action rules are necessary, management disagreed
on the need to develop an action plan to effect such changes. Further, management did
not provide an alternative means of pursuing changes to EEOC class action rules,
especially given the financial impact these rules can have on the Postal Service, as
acknowledged by management throughout this review. We do not plan to pursue this
through the formal audit resolution process; however, we maintain our position that
management should develop a plan of action to address the issue identified in the
report. The action plan is a necessary first step to effect changes to the EEOC class
action rules. Such a plan should identify areas in and out of management’s control
along with projected milestones.

The OIG considers management’s comments regarding recommendations 2 responsive
to the report.

The OIG considers both of the recommendations significant and they will be closed in
the Postal Service’s follow-up tracking system upon issuance of this report. Although
management disagreed with recommendation 1, since we do not plan to pursue the
issue through the audit resolution process, this recommendation will be closed, not
implemented. Regarding recommendation 2, management provided adequate support
that this recommendation has been implemented and no further documentation is
required.




                                           6
Postal Service Challenges in the                                               HR-MA-12-003
Equal Employment Opportunity Process



                               Appendix A: Additional Information

Background

The EEOC is a separate agency that was created by Title VII of the Civil Rights Act of
1964 (Title VII), as amended, to enforce federal antidiscrimination laws. 22 The EEOC
investigates discrimination complaints based on an individual's race, color, national
origin, religion, sex, age, disability, and retaliation for reporting and/or opposing a
discriminatory practice. It is empowered to file discrimination suits against private
employers on behalf of alleged victims and to adjudicate claims of discrimination
brought against federal agencies.

The EEOC derives its authority to enforce anti-discrimination laws in both the public and
private sectors from a variety of statutes, including Title VII, the Rehabilitation Act of
1973, as amended (which governs the public sector),23 the Americans with Disabilities
Act of 1990, as amended (which governs the private sector),24 the Age Discrimination in
Employment Act,25 and the Equal Pay Act.26

The EEOC provides leadership and guidance to federal agencies on all aspects of the
federal government's EEO program. It also ensures federal agency and department
compliance with EEOC regulations, provides technical assistance to federal agencies
concerning EEO complaint adjudication, provides guidance and assistance to
administrative judges who conduct hearings on EEO complaints, and adjudicates
appeals from administrative decisions made by federal agencies on EEO complaints.

In the private sector, the EEOC primarily serves in the role of investigator and mediator.
Its mission is to seek a resolution between the parties outside the courtroom by
facilitating voluntary settlement or conciliation agreements between the complainant and
the employer. The EEOC’s enforcement authority is limited to the investigation of
'charges' of discrimination filed by employees and, based on its own investigation,
determining whether there is 'reasonable cause' to believe that unlawful discrimination
occurred.

History of Equal Employment Opportunity Commission’s Class Action Regulations

In 1977, the EEOC added a class complaints section to its regulations and stated that
―. . . definitions, scope, and criteria for rejection of class complaints [contained within
were designed] . . . to conform as closely as possible to Rule 23, Federal Rules of Civil
Procedure.‖27 In 1992, in response to pressure from Congress to reform the way federal
agencies processed EEOC complaints, the EEOC revised its regulations and removed

22
   42 U.S.C. §2000 et seq.
23
   29 U.S.C. §791 et seq.
24
   42 U.S.C. §12101 et seq.
25
   29 U.S.C. §621 et seq.
26
   Id. § 206(d).
27
   42 Fed. Reg. 11807 (EEOC, March 1, 1977).

                                               7
Postal Service Challenges in the                                                                     HR-MA-12-003
Equal Employment Opportunity Process


a provision that allowed class members to opt out of the class complaint.28 Under the
original EEOC class complaint regulations, members were given the right to opt out of a
class complaint and avoid being bound by the administrative judge’s decision regarding
the complaint.29

In explaining this revision, the EEOC stated that most employment discrimination class
action suits were brought under Rule 23(b)(2), meaning the class alleged that the
defendant-employer ―. . .acted or refused to act on grounds applicable to the class,
thereby making appropriate final relief to the class as a whole.‖30 The EEOC found that
allowing class members to opt out of a complaint was ―. . . inconsistent with the
prerequisite of a (b)(2) class that relief is appropriate for the class as a whole.‖31 The
EEOC added that the opt-out provision increased the likelihood that agencies would be
forced to repeatedly litigate class claims in separate individual suits, ―. . .a consequence
the class action procedure was designed to prevent.‖32

Objective, Scope, and Methodology

Our objective was to review EEOC rules and regulations for processing class action
complaints and how these rules apply to the Postal Service and private companies. Our
scope covered 5 years of historical data from 2006 through 2010, regarding various
metrics of EEO performance. It also covered current processes related to EEO
compliance and reporting consistent with federal law and Postal Service policy. To
accomplish our objective, we:

  Consulted with OIG and Postal Service Offices of General Counsel regarding the
   EEO complaint process and class action filings as they relate to the Postal Service,
   other federal agencies, and the private sector.

  Compared and documented the differences in the processes used by the Postal
   Service and the private sector.

  Reviewed existing and recently closed class action EEO complaints made against
   the Postal Service.

  Conducted interviews with Postal Service Headquarters officials to gain a better
   understanding of concerns regarding EEO issues.

  Obtained and analyzed data from Postal Service officials on costs related to
   investigations, final agency decisions, mediation, and the operation of the EEO office
   in Tampa, FL.


28
   57 Fed. Reg. 12634-01 (EEOC April 10, 1992).
29
   Id. at Major Features §G.
30
   Id. (quoting FED. R. CIV. PRO. 23(b)(2)).
31
   Id.
32
   Id.(citing Kincade v. Gen. Tire & Rubber Co., 635 F.2d 501, 507 (5th Cir. 1981)). The EEOC also noted that
allowing members to opt out of a class complaint rendered ―the class action mechanism less effective.‖ Id.

                                                         8
Postal Service Challenges in the                                                HR-MA-12-003
Equal Employment Opportunity Process


 Assessed the availability of time and attendance records for time spent on EEO
  issues.

We conducted this review from September 2011 through September 2012 in
accordance with the Council of the Inspectors General on Integrity and Efficiency,
Quality Standards for Inspection and Evaluation. We discussed our observations and
conclusions with management on August 16, 2012, and included their comments where
appropriate.

We assessed the reliability of the data reported to the EEOC by interviewing Postal
Service officials knowledgeable about the EEO process and agency reporting
requirements. Furthermore, agencies reporting to the EEOC have to certify that data
submitted are accurate and complete. Therefore, we determined the data were
sufficiently reliable for the purposes of this report.

Prior Audit Coverage

The OIG did not identify any prior audits or reviews related to the objective of this audit.




                                              9
Postal Service Challenges in the                                                                        HR-MA-12-003
Equal Employment Opportunity Process



                     Appendix B: Class Action Certification Requirements

          Federal Court Requirements                                      EEOC Requirements
                    Rule 23(a)
        Numerosity – the class must be so                    Numerosity – the class must be so numerous
     numerous that a consolidated complaint by                that a consolidated complaint by all class
         all class members is impractical.                             members is impractical.
     Commonality – there are questions of fact                Commonality – there are questions of fact
                common to the class.                                    common to the class.
     Typicality – the claims of the class agent(s)              Typicality – the claims of the class agent(s)
     are typical of the claims of the entire class.             are typical of the claims of the entire class.
        Adequacy of representation – the class                   Adequacy of representation – the class
      agent will fairly and adequately protect the              agent will fairly and adequately protect the
                  interests of the class.                                   interests of the class.
                      Rules 23(b)33                                                  N/A
          Individual adjudication of the class
         members’ claims would prejudice the
       opposing party (employer) or other class
                       members; or
        Injunctive or declaratory (for example,                                        N/A
     non-monetary) relief sought by class agent
          is proper on a class-wide basis; or
       Common questions of fact or law among                                           N/A
        class members predominate over any
     questions affecting only individual members
         and class action is superior to other
        available methods for fair and efficient
               adjudication of the claim.
Source: EEOC’s class action regulations (§1614.204) and Federal Rules of Civil Procedure 23(a) and (b).




33
  Unlike the EEOC’s regulations, before a class can be certified in federal court it must satisfy the four requirements
outlined in Rule 23(a), plus one of the three additional requirements in Rule 23(b).

                                                           10
Postal Service Challenges in the                            HR-MA-12-003
Equal Employment Opportunity Process


                        Appendix C: Management’s Comments




                                       11
Postal Service Challenges in the            HR-MA-12-003
Equal Employment Opportunity Process




                                       12
Postal Service Challenges in the            HR-MA-12-003
Equal Employment Opportunity Process




                                       13
Postal Service Challenges in the            HR-MA-12-003
Equal Employment Opportunity Process




                                       14
Postal Service Challenges in the            HR-MA-12-003
Equal Employment Opportunity Process




                                       15
Postal Service Challenges in the            HR-MA-12-003
Equal Employment Opportunity Process




                                       16
Postal Service Challenges in the            HR-MA-12-003
Equal Employment Opportunity Process




                                       17
Postal Service Challenges in the            HR-MA-12-003
Equal Employment Opportunity Process




                                       18
Postal Service Challenges in the            HR-MA-12-003
Equal Employment Opportunity Process




                                       19
Postal Service Challenges in the            HR-MA-12-003
Equal Employment Opportunity Process




                                       20
Postal Service Challenges in the            HR-MA-12-003
Equal Employment Opportunity Process




                                       21
Postal Service Challenges in the            HR-MA-12-003
Equal Employment Opportunity Process




                                       22
Postal Service Challenges in the            HR-MA-12-003
Equal Employment Opportunity Process




                                       23
Postal Service Challenges in the            HR-MA-12-003
Equal Employment Opportunity Process




                                       24
